                                   Closeout for M98120034

On September 30,1997, an anonymous caller alleged that a PI1 had committed fraud and/or
misconduct in science by requesting NSF suppod for research already completed. The
caller stated that the PI had told him,prior to the award being made, that he was seeking
NSF support for a project which was by that time 80-90% finished. It was the caller's belief
that the proposed work had served as part of the PI's dissertation research3 and had also
been published in a scholarly j~urnal.~The caller was also concerned about the PI's
intention to submit a follow-up proposal5to NSF.

Prior to the award noted by the caller, the PI had submitted an essentially identical proposal6
to NSF which had been declined. We compared these two proposals against the PI's Ph.D.
dissertation and the journal publication identified by the caller. The research outlined in
these proposals is not described in either the dissertation or the publication. Furthermore,
the PI stated to us that none of the research had been completed before he submitted either
proposal. We concluded that NSF funds were requested for research which had not been
published in the PI's dissertation and journal publication.

We discovered that one reviewe$ of the PI's most recent proposal suggested that the PI
should "be far more explicit" when referring to an award he received from a scientific
society while another8opined that the manner with which the PI did refer to this award "is
misleading at best." The award, as it was written in his third proposal, appeared to be fairly
prestigious and the reviewers were skeptical that the PI had actually been presented with it.
In his previous two proposals this award is designated as an "undergraduate" award while in
his third proposal the "undergraduate" designation was missing. The PI stated to us that he
did not see any differences in the references he made regarding his award prim+ because
he wasn't aware of the more prestigious award. We concluded that further inquiry wasn't
necessary because the transformation of the PI's reference to his societal award was the
result of ignorance and because the PI indicated a willingness to accurately refer to this
award in the future.

We also found several inconsistencies between the PI's version of his educational history in
his proposals and the records of the registrars at two of his alrna m a t e r ~ . ~The
                                                                                   > ' ~ PI stated
that he had never seen copies of his official transcripts until we asked about his educational
records, and that the biographical information he had provided in his proposals represented
his best understanding of the facts. We concluded that further inquiry was not warranted
because the inconsistencies in the PI's educational history among his three proposals to NSF
were the result of inadequate record keeping and because the PI indicated a willingness to
accurately update his records.




5
     Footnotes Redacted
7
8
9
10



                                      Page 1 of 2
                                  Closeout for M98120034

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                                     Page 2 of 2
